                                    SOCIAL SECURITY

MEMORANDUM
Date:   August 13, 2004                                                      Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement
        (A-09-04-14050)


        The attached final report presents the results of our audit. Our objective was to
        determine the effectiveness of the Social Security Administration’s controls to detect
        and prevent payments to student beneficiaries beyond the maximum age of entitlement.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have
        your staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.



                                                 S
                                                 Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



     PAYMENTS TO STUDENT
   BENEFICIARIES BEYOND THE
  MAXIMUM AGE OF ENTITLEMENT

    August 2004   A-09-04-14050




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      Executive Summary
OBJECTIVE
The objective of our audit was to determine the effectiveness of the Social Security
Administration’s (SSA) controls to detect and prevent payments to student beneficiaries
beyond the maximum age of entitlement.

BACKGROUND
The Social Security Act provides benefits to children of fully or currently insured workers
who are retired, deceased, or disabled. Generally, child beneficiaries are eligible for
benefits until they marry or reach age 18. However, children who are full-time students
at an elementary or secondary school may receive extended benefits beyond age 18.
For schools that operate on a yearly enrollment basis, student benefits are payable
through the earlier of (1) the second month after the month in which the child reaches
age 19 or (2) the month when the student completes the course in which he or she is
enrolled. For schools that require enrollment each quarter or semester, student benefits
are payable through the last month of the quarter or semester in which the child reaches
age 19.

From September 2001 to August 2002, SSA disbursed one or more benefit payments
to 258,530 student beneficiaries. Of this amount, we found that 4,284 students
(1.7 percent) were over 19 years and 2 months.

RESULTS OF REVIEW
Based on a random sample of 100 students over the age of 19 years and 2 months
who were in terminated pay status, we found that SSA disbursed $110,797 in incorrect
payments to 70 students and $5,435 in unsupported payments to 7 students. Projecting
these results to our population of 4,056 students, we estimate that SSA disbursed about
$4.5 million in incorrect payments to 2,839 students and $0.2 million in unsupported
payments to 284 students (see Appendix C). During our audit, we referred an additional
228 students in current pay status or beyond their end-of-school year to SSA for
corrective action. As of December 2003, SSA established about $1.2 million in
overpayments against these students.

RECOMMENDATIONS

We recommend SSA take corrective action to ensure that overpayments are
established and collection activities are initiated. In addition, we recommend SSA
(1) revise the Form SSA-1372, Student’s Statement Regarding School Attendance,
to request school officials to identify and certify the operating basis of the school and



Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)     i
(2) ensure the Form SSA-1372 is retained in the student’s claim folder or scanned into
the paperless imaging system.

AGENCY COMMENTS
In its response, SSA agreed with all of our recommendations. See Appendix D for the
text of SSA’s comments.




Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)   ii
                                                           Table of Contents
                                                                                                                Page


INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................2

Incorrect Payments .................................................................................................2

   Students in Terminated Pay Status....................................................................3

   Students in Current Pay Status or Beyond Their End-of-School Year ...............5

Unsupported Payments...........................................................................................7

CONCLUSIONS AND RECOMMENDATIONS.......................................................9

APPENDICES

Appendix A – Acronyms

Appendix B – Scope and Methodology

Appendix C – Sampling Methodology and Results

Appendix D – Agency Comments

Appendix E – OIG Contacts and Staff Acknowledgments




Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)
                                                                         Introduction
OBJECTIVE
The objective of our audit was to determine the effectiveness of the Social Security
Administration’s (SSA) controls to detect and prevent payments to student beneficiaries
beyond the maximum age of entitlement.

BACKGROUND
Title II of the Social Security Act (Act) provides for benefits to children of fully or
currently insured workers who are retired, deceased, or disabled.1 Generally, child
beneficiaries may receive benefits until they marry or reach age 18.2 Amendments
to the Act provide for extended benefits beyond age 18 to enable child beneficiaries
who are full-time students at an elementary or secondary school to complete their
education.3 The Act states that a child of a beneficiary is entitled to Social Security
benefits if he or she either had not reached age 18 or was a full-time elementary or
secondary school student and had not reached age 19.4

Students who reach age 19 in a month in which they are in full-time attendance are
eligible for extended benefits. For schools that operate on a yearly enrollment basis,
student benefits are payable through the earlier of (1) the second month after the month
in which the child reaches age 19 or (2) the month when the student completes the
course in which he or she is enrolled.5 For schools that require enrollment each quarter
or semester, student benefits are payable through the last month of the quarter or
semester in which the child reaches age 19.6 SSA monitors and administers all phases
of student entitlement beginning with the mailing of an advance notice before the child
reaches age 18 through the termination of benefits.

From September 2001 to August 2002, SSA disbursed 1 or more benefit payments
to 258,530 student beneficiaries. Of this amount, we found that 4,284 students
(1.7 percent) were over 19 years and 2 months.



1
    The Social Security Act § 202(d)(1), 42 United States Code (U.S.C.) § 402(d)(1) (2004).
2
    See id.
3
    Public Law ( Pub. L.), No. 89-97, 79 Stat. 372 and Pub. L. No. 97-35, 95 Stat. 841.
4
    The Social Security Act § 202(d)(1), 42 U.S.C. § 402(d)(1) (2004).
5
    SSA, Program Operations Manual System (POMS), RS 00205.325.
6
    See id.


Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)       1
                                                Results of Review
SSA needs to improve its controls to detect and prevent payments to student
beneficiaries over the age of 19 years and 2 months. For the 100 students in
terminated pay status in our sample, SSA paid benefits to 70 students beyond the
maximum age of entitlement. Also, SSA did not retain documentation to support the
benefits awarded to seven students.7 Projecting these results to our population of
4,056 students, we estimate that SSA disbursed incorrect and unsupported payments
of $4.5 and $0.2 million, respectively (see Appendix C). In addition, we referred
228 students in current pay status or beyond their end-of-school year (ESY) to SSA
for corrective action. As of December 2003, SSA established about $1.2 million in
overpayments against these students. The results of our review are summarized below.



              Summary of Student Beneficiaries Reviewed
                              Students over 19 Years and 2 Months

        Incorrect
     Payments (70%)




                                                      o




                         Correct                                         Unsupported
                      Payments (23%)                                    Payments (7%)




INCORRECT PAYMENTS

Our audit disclosed that SSA disbursed about $5.7 million in incorrect payments to
student beneficiaries beyond the maximum age of entitlement. Of this amount, we
estimate that SSA disbursed about $4.5 million to students in terminated pay status
and $1.2 million to students in current pay status or beyond their ESY. This occurred
because SSA employees did not properly verify the enrollment basis of the school in

7
  SSA correctly paid benefits to the remaining 23 students in our sample. Of this amount, 5 students
did not receive any overpayments and 18 students received overpayments that were offset against
underpayments due other individuals in the same family.


Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)                2
determining the maximum age of entitlement for the student. In addition, SSA had
not established effective controls to ensure that students over 19 years and 2 months
were eligible for benefits. The following chart provides a breakdown of the incorrect
payments questioned by our audit.



                                  Incorrect Payments to Student Beneficiaries
                                         Students over 19 Years and 2 Months


                                 $5
      Total Dollars (Millions)




                                 $4

                                                                                    Review ed
                                 $3
                                           $4.5 Million                             by OIG

                                                                                    Referred
                                 $2                                                 to SSA


                                 $1
                                                          $1.2 Million
                                 $0




Students in Terminated Pay Status

Our audit disclosed that 4,056 student beneficiaries over 19 years and 2 months were
in terminated pay status and did not receive benefits beyond their ESY. Based on a
random sample of 100 students, we found that SSA disbursed incorrect payments to
70 students (70 percent) who were beyond the maximum age of entitlement.8 These
errors went undetected because SSA employees did not always contact schools to
verify their enrollment basis and were not fully aware of the applicable procedures for
determining the maximum age of entitlement. As a result, these students received
$110,797 in benefits to which they were not entitled.

SSA mails the Form SSA-1372, Student’s Statement Regarding School Attendance,
(Form SSA-1372) to child beneficiaries about 3 months before they reach age 18. To
receive benefits beyond age 18, students must complete the form and submit it to
school officials for certification. Upon receipt of the Form SSA-1372, SSA determines
whether the student is in full-time attendance and verifies the operating basis of the


8
  We found that 8 of the 70 student beneficiaries had actually dropped out of school before reaching
19 years and 2 months. This condition will be reported in a separate audit, Follow-Up Review of School
Attendance by Child Beneficiaries over Age 18 (A-09-04-14013).


Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)                  3
school. SSA also determines the ESY for the student based on the expected
graduation date and the maximum age of entitlement.9

The maximum age of entitlement for student benefits depends on the operating basis
of the school. If the school operates on a yearly basis or does not require enrollment
each quarter or semester, the maximum age is 19 years and 2 months or the month in
which the student completes the course, whichever occurs first.10 If the school requires
enrollment on a quarterly or semester basis, the maximum age is the last month of the
term in progress when the student reaches age 19.11 In these instances, the maximum
age of entitlement may exceed 19 years and 2 months.

For the students in our sample, we contacted school officials to determine whether
(1) the schools operated on a yearly, quarterly, or semester basis and (2) the students
were required to enroll each quarter or semester. We identified 70 students who
attended schools operating on a yearly basis or on a quarterly or semester basis that
did not require enrollment each quarter or semester. Accordingly, the maximum age
of entitlement for these students was 19 years and 2 months. The number of students,
by age, who received payments beyond the maximum age of entitlement is illustrated in
the following chart.



                                  Age of Students with Incorrect Payments
                                         OIG Sample of 100 Student Beneficiaries

                             35

                             30
        Number of Students




                             25

                             20

                             15

                             10

                             5

                             0
                                  19+3      19+4       19+5        19+6       19+7   19+8
                                                Age of Students (Years + Months)




9
     SSA, POMS, RS 00205.400.
10
     SSA, POMS, RS 00205.325.
11
     See id.


Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)     4
For example, our audit identified a student who received benefits for 5 months beyond
the maximum age of entitlement. This student was born in October 1983 and reached
19 years and 2 months in December 2002. He graduated from high school in May 2003
and received student benefits until June 2003. We determined the school operated on
a yearly basis rather than on a quarterly or semester basis. Therefore, the student was
only eligible for benefits through 19 years and 2 months. However, SSA continued to
disburse payments until he reached 19 years and 7 months. As a result, the student
received $2,570 in benefits to which he was not entitled.

During our audit, we noted the Form SSA-1372 does not require the school or student
to disclose whether the school is operating on a yearly basis, quarterly or semester
basis with enrollment each quarter or semester, or quarterly or semester basis without
enrollment each quarter or semester. Currently, SSA must contact the schools directly
to verify their operating basis.12 Without such information, we believe that SSA may be
ill-equipped to readily determine the maximum age of entitlement for student benefits.
Therefore, we encourage SSA to revise the Form SSA-1372 to request school officials
to identify and certify the operating basis of the school.

Students in Current Pay Status or Beyond Their End-of-School Year

Our audit disclosed that 228 student beneficiaries over 19 years and 2 months were
in current pay status or had received benefits beyond their ESY. As depicted in
the chart on the next page, we found that 175 students were in current pay status, of
which 160 had received benefits beyond their ESY and 15 did not receive benefits
beyond their ESY. The remaining 53 students were in terminated pay status and had
received benefits beyond their ESY. In August 2003, we referred these cases to SSA
for corrective action. As of December 2003, SSA established about $1.2 million in
overpayments against these students.13




12
  SSA’s procedures direct employees to assume a yearly operating basis unless there is evidence to the
contrary. Therefore, verification of the school’s operating basis is not always required.
13
     We subsequently referred 113 of the 228 cases to our Office of Investigations.


Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)             5
                       Student Beneficiaries Referred to SSA
                             Students over 19 Years and 2 Months

       Current Pay Status,                                                    Current Pay Status,
        Beyond ESY (160)                                                      Not Beyond ESY (15)




                                                                             Terminated Pay Status,
                                                                                Beyond ESY (53)




SSA’s field offices (FO) enter student information from the Form SSA-1372 into its
automated system. FOs are responsible for developing the claim, including reviewing
eligibility criteria, verifying school attendance and operating basis, determining the ESY,
and awarding benefit payments.14 In response to a prior audit,15 SSA implemented
systems modifications to prevent FOs from entering an ESY greater than 19 years and
2 months. Any claims involving students with an ESY beyond 19 years and 2 months
(that is, for schools with quarterly or semester enrollment) require special handling by
SSA’s processing centers (PC). FOs must forward these claims to the PCs for manual
processing.

       42 Students Were      Of the 228 students in current pay status or beyond
      over Age 20 or Had     their ESY, we noted that 42 students were already over
      ESY Beyond Age 20      age 20 or scheduled to reach at least age 20 before their
                             ESY. For example, one of these students had an ESY of
February 2012 and may continue to receive benefits up to age 28 unless suspension or
termination actions are processed by the Agency. In July 2003, we discussed this issue
with staff members from SSA’s Headquarters16 and Western Program Service Center.
SSA agreed with our findings and took immediate corrective action for the 228 students
identified by our audit.


14
     SSA, POMS, RS 00205.400.
15
     School Attendance by Child Beneficiaries Over Age 18 (A-09-97-61007), September 1999.
16
  Including the Offices of Systems Design and Development, Retirement and Survivors Insurance
Systems, and Public Services and Operations Support.


Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)               6
For example, our audit identified a student who received benefits for 16 months
beyond the ESY. This student was born in September 1983. Based on his expected
graduation date, the ESY was June 2002. Although the student reached 19 years
and 2 months in November 2002, the maximum age of entitlement should have been
June 2002. Nevertheless, in September 2003, the student had reached age 20 and
remained in current pay status. We referred the case to SSA for corrective action.
In October 2003, SSA terminated benefits and established $20,138 in overpayments.
We subsequently referred this case to our Office of Investigations.

SSA informed us that it is currently in the process of redesigning its automated system
for student entitlement. SSA has incorporated many of these systems modifications
into Release 3.0 of its Title II Redesign project, which was implemented in June 2004.
As a result, FOs must enter the school’s operating basis into its automated system
to process the claim. If the school operates on a yearly basis or does not require
enrollment each quarter or semester, the automated system will terminate benefits
the earlier of the ESY or the month after the student reaches 19 years and 2 months.
Conversely, if the school requires enrollment each quarter or semester, the automated
system will terminate benefits the earlier of the ESY or the month after the student
reaches 19 years and 6 months. We believe these systems modifications should
reduce the potential for payments beyond the maximum age of entitlement.

UNSUPPORTED PAYMENTS
Our audit disclosed that 4,056 student beneficiaries over 19 years and 2 months were
in terminated pay status and did not receive benefits beyond their ESY. Based on a
random sample of 100 students, we found that SSA was unable to provide supporting
documentation for its decision to award benefits to 7 students (7 percent). This
occurred because SSA had not retained sufficient information—either in paper or
electronic form—to support its basis for awarding benefit payments. As a result,
these students may have received $5,435 in benefits to which they were not entitled.

SSA requires child beneficiaries to submit the Form SSA-1372 to establish their
eligibility for student benefits.17 Effective January 2002, SSA must retain the Form
SSA-1372 in the student’s claim folder until the folder is destroyed. As an alternative,
SSA may retain documents electronically by scanning the paper forms into its paperless
imaging system. The paper forms may be destroyed once the image is determined to
be clearly readable.18




17
   In addition, any students born before June 2, 1983 must submit the Forms SSA-1386, Student’s
Statement Regarding Resumption of School Attendance; SSA-1388, Report of Student Beneficiary at End
of School Year; and SSA-1390, Report of Student Beneficiary About to Attain Age 19. SSA discontinued
these forms in November 2002.
18
     SSA, POMS, DG 00510.025 and DG 00510.030.


Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)           7
For seven students, SSA employees were unable to retrieve the Form SSA-1372.
Using information from the student’s claim folder, SSA’s automated system, and other
available resources (that is, Internet databases), we attempted to locate the students
and identify the schools they had attended. However, we were unsuccessful in our
efforts. Without supporting documentation, we were unable to determine the adequacy
of support for the benefit payments.

We believe the lack of supporting documentation raises questions about the integrity
of the student entitlement process. To prevent future occurrences of similar problems,
we encourage SSA to properly maintain supporting documentation for student benefits
either in paper or electronic form. Specifically, SSA should ensure the Form SSA-1372
is retained in the student’s claim folder or scanned into the paperless imaging system.
Such information is necessary to monitor student beneficiaries and strengthen program
stewardship.




Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)   8
                                             Conclusions and
                                          Recommendations
Based on a random sample of 100 students over the age of 19 years and 2 months
who were in terminated pay status, we found that SSA disbursed $110,797 in incorrect
payments to 70 students and $5,435 in unsupported payments to 7 students. Projecting
these results to our population of 4,056 students, we estimate that SSA disbursed about
$4.5 million in incorrect payments to 2,839 students and $0.2 million in unsupported
payments to 284 students (see Appendix C). During our audit, we referred an additional
228 students in current pay status or beyond their ESY to SSA for corrective action. As
of December 2003, SSA established about $1.2 million in overpayments against these
students.

Although SSA has undertaken a number of initiatives to improve its controls and
procedures, we believe that additional actions are necessary to strengthen program
integrity and deter fraud, waste, and abuse. These actions should reduce the potential
for incorrect and unsupported payments to student beneficiaries beyond the maximum
age of entitlement. Therefore, we recommend SSA:

1. Take corrective action to ensure that overpayments are established and collection
   activities are initiated for the 70 incorrect payments and 7 unsupported payments
   identified by our audit.

2. Evaluate the feasibility of establishing overpayments and initiating collection
   activities for the remaining incorrect and unsupported payments questioned by
   our audit.

3. Revise the Form SSA-1372 to request school officials to identify and certify the
   operating basis of the school (that is, yearly, quarterly or semester with enrollment
   each quarter or semester, or quarterly or semester without enrollment each quarter
   or semester).

4. Ensure the Form SSA-1372 is retained in the student’s claim folder or scanned into
   the paperless imaging system.

AGENCY COMMENTS
In its response, SSA agreed with all of our recommendations. See Appendix D for the
text of SSA’s comments.




Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)    9
                                      Appendices




Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)
                                                                         Appendix A

Acronyms
Act                         Social Security Act

ESY                         End-of-School Year

FO                          Field Office

Form SSA-1372               Student’s Statement Regarding School Attendance

MBR                         Master Beneficiary Record

PC                          Processing Center

POMS                        Program Operations Manual System

Pub. L.                     Public Law

SSA                         Social Security Administration

U.S.C.                      United States Code




Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)
                                                                         Appendix B

Scope and Methodology
Based on the Social Security Administration’s (SSA) Master Beneficiary Record
(MBR), we obtained a data extract of 258,530 student beneficiaries with a date of birth
between October 1, 1982 and July 31, 1984. Using this data extract, we determined
that 4,284 students were over 19 years and 2 months as of July 2003. According to
the MBR, these students had received one or more benefit payments after reaching the
age of 19 years and 2 months.

Of the 4,284 students in our population, we found that 4,056 students (94.7 percent)
were in terminated pay status and did not receive benefits beyond their end-of-school
year (ESY). From this amount, we selected a random sample of 100 students for
review (see Appendix C). For the remaining 228 students (5.3 percent), we found that
(1) 175 students were in current pay status as of July 2003 and (2) 53 students were
in terminated pay status and had received benefits beyond their ESY. We referred
these cases to SSA for corrective action.

To accomplish our objective, we:

•   reviewed the applicable sections of the Social Security Act (Act), United States
    Code, and SSA’s Program Operations Manual System;

•   interviewed SSA employees from the Western Program Service Center and the
    Offices of Systems Design and Development, Retirement and Survivors Insurance
    Systems, and Public Services and Operations Support;

•   extracted a random sample of 100 student beneficiaries, and obtained queries from
    SSA’s MBR and Payment History Update System;

•   requested the Form SSA-1372, Student’s Statement Regarding School Attendance,
    for the students in our sample;

•   requested case folders to review supporting documentation for the benefit payments
    awarded to the students in our sample;

•   contacted schools and students, via telephone and fax, to verify school attendance
    and operating basis for the students in our sample;

•   visited Internet websites (that is, www.whitepages.com and www.greatschools.net)
    to locate the students and identify the schools they had attended;

•   used Autotrack XP, an Internet database, to obtain current addresses and telephone
    numbers for the students in our sample; and


Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)   B-1
•   reviewed the overpayments established by SSA for the 228 cases referred for
    corrective action because the students were in current pay status or had exceeded
    their ESY.

We determined the computer-processed data from the MBR was sufficiently reliable for
our intended use. We conducted tests to determine the completeness and accuracy of
the data. These tests allowed us to assess the reliability of the data and achieve our
audit objectives.

We evaluated the effectiveness of SSA’s controls and procedures to ensure that
students who received Social Security benefits beyond the age of 19 years and
2 months were eligible for payments in accordance with the Act. Specifically, we
determined the propriety of benefits awarded to the students and the adequacy of
support for the payments. The incorrect and unsupported payments questioned by
our audit represent net overpayments that were reduced by underpayments due other
individuals in the same family. These amounts include any overpayments attributable
to student beneficiaries who had dropped out of school before reaching the age of
19 years and 2 months.

We performed audit work in Richmond, California, between August and
December 2003. The entities audited were SSA’s processing centers under the
Deputy Commissioner for Operations and the Office of Retirement and Survivors
Insurance Systems under the Deputy Commissioner for Systems. We conducted
our audit in accordance with generally accepted government auditing standards.




Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)   B-2
                                                                         Appendix C

Sampling Methodology and Results
We obtained a data extract from the Social Security Administration’s (SSA) Master
Beneficiary Record (MBR) of student beneficiaries who were over 19 years and
2 months as of July 2003. We identified 4,056 students in terminated pay status who
did not receive payments beyond their end-of-school year. SSA processed termination
actions because the students had reached age 19 or did not attend school. For these
students, we reviewed the timeliness of the termination actions and the adequacy of
support for the benefit payments.

Based on a random sample of 100 students, we found that SSA disbursed $110,797 in
incorrect payments to 70 students and $5,435 in unsupported payments to 7 students.
Projecting these results to our population of 4,056 students, we estimate that SSA
disbursed about $4.5 million in incorrect payments to 2,839 students and $0.2 million in
unsupported payments to 284 students. The following tables provide the details of our
sampling results and statistical projections.

                           Table 1 – Population and Sample Size

        Population                        Population Size               Sample Size
 Terminated Students                          4,056                        100

                                   Table 2 – Sample Results

                                 Incorrect                Unsupported
  Sample Results                 Payments                  Payments            Total
 Number of Errors                       70                         7               77
 Amount of Errors                $110,797                     $5,435         $116,232

                 Table 3 – Statistical Projections for Number of Errors

                                 Incorrect                Unsupported
     Projection                  Payments                  Payments            Total
 Point Estimate                    2,839                      284              3,123
 Lower Limit                       2,501                      136
 Upper Limit                       3,141                      515
   Note: Projections are at the 90-percent confidence level.




Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)   C-1
                 Table 4 – Statistical Projections for Amount of Errors

                                 Incorrect               Unsupported
     Projection                 Payments                  Payments            Total
 Point Estimate                 $4,493,926                 $220,444        $4,714,370
 Lower Limit                    $3,349,857                  $69,768
 Upper Limit                    $5,637,995                 $371,119
   Note: Projections are at the 90-percent confidence level.




Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)   C-2
                                                                         Appendix D

Agency Comments




Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)
                                        SOCIAL SECURITY

MEMORANDUM                                                                     33346-24-1184


Date:      July 29, 2004                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Payments to Student Beneficiaries Beyond
           the Maximum Age of Entitlement" (A-09-04-14050)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




           Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)   D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "PAYMENTS TO STUDENT BENEFICIARIES BEYOND THE
MAXIMUM AGE OF ENTITLEMENT" (A-09-04-14050)


Thank you for the opportunity to review and comment on the draft report. We appreciate
your efforts to conduct this review and we look forward to receiving your accompanying
report, “OIG Follow-up Review of School Attendance of Child Beneficiaries Over Age
18” (A-09-04-14013; Audit No. 22003058), in September 2004. We believe the results
of these two reports will assist us in identifying additional enhancements needed to our
redesigned student monitoring system that was implemented in March 2001.

We too are aware of the past and current complexities that can occur in determining a
student’s maximum age of entitlement. As part of our continuous commitment to issue
benefit payments accurately, we have been working to identify and implement
enhancements to systems and processes for student beneficiaries at, and over, the age of
18. Below is a description of activities we have taken that were developed based on our
own internal reviews. I would like to highlight that the actions described below address a
number of the areas that you also identified as needing improvement.

In the summer of 2002, we identified problems regarding paying student benefits past age
19 plus 2 months, and our quality assurance staff provided listings that identified 1,633
potential student overpayment situations. All of those cases were corrected by the
Program Service Centers.

In September 2003, we implemented new instructions; When Student Benefits Terminate,
RS 00205.325, TN 16. In addition to clarifying the procedure, these instructions include
14 examples of possible termination scenarios and illustrate the considerations of the
school’s operating basis (either yearly, quarterly or semester with reenrollment) in
relation to age 19 attainment; payment for the month of graduation and age 19 attainment;
age 19 attainment in the first or last month of the school year; and age 19 attainment in a
month of nonattendance. Also, in September 2003, we presented an Interactive Video
Training session dedicated solely to Title II student reminders, particularly age 19 issues.

Finally, effective with the June 21, 2004, Title II Redesign Release 3 (T2R3), the system
now requires specific input to identify those instances when a student attends a secondary
school that operates on a quarterly or semester basis and requires reenrollment. Only in
this situation is a student entitled to receive benefits beyond the age of 19 plus 2 months.
This new system modification will help prevent future payment problems for this group
of beneficiaries.

Regarding the sample selection, the report states that the data used for the analysis was
extracted from terminated student beneficiaries born between October 1, 1982 and
July 31, 1984 who received student benefits after the age of 19 plus 2 months. Therefore,
the results reflect cases processed using the pre-March 2001 version of the SSA-1372
(which was used to process payments to students born between October 1, 1982 and



Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)        D-2
June 1, 1983) and the post-March 2001 version of the SSA-1372 (which was used to
process payments to students born between June 2, 1983 and July 31, 1984). It is not
clear if the use of the new form had an impact on these payments as the analysis is based
on sample records processed both before and after the revised SSA-1372 was introduced.

Regarding the findings and recommendations, we agree, and the responses below
describe actions we have already taken, or plan to take, for the individual
recommendations. We have also included some technical comments.

Recommendation 1

SSA should take corrective action to ensure that overpayments are established and
collection activities are initiated for the 70 incorrect payments and 7 unsupported
payments identified by our audit.

Response

We agree. In December 2003, corrective action activities were completed for these cases.

Recommendation 2

SSA should evaluate the feasibility of establishing overpayments and initiating collection
activities for the remaining incorrect and unsupported payments questioned by our audit.

Response

We agree. In December 2003, we established overpayments and initiated collection
activities on all the remaining accounts.

Recommendation 3

SSA should revise the Form SSA-1372 to request school officials to identify and certify
the operating basis of the school (that is, yearly, or quarterly or semester with enrollment
each quarter or semester, or quarterly or semester without enrollment each quarter or
semester).

Response

We agree and have already drafted a new version of the form. We will solicit and
incorporate comments on the revised form from users. Once the proposed revised form is
finalized, we will submit the proposed revisions to the Office of Management and Budget
for approval. When the new form is approved and printed, we will update and issue
accompanying Program Operation Manual System (POMS) instructions about the use of
the form and the information on the web site “For School Officials” on Social Security
Online (www.socialsecurity.gov). We estimate that the above process will be completed
in a year.



Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)        D-3
Recommendation 4

SSA should ensure the Form SSA-1372 is retained in the student’s claim folder or
scanned into the paperless imaging system.

Response

We agree. On July 15, 2004 we issued a reminder item (AM-04104) about following the
procedure in GN 01085.025 and GN 01085.030 regarding the retention of the SSA-1372.




Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)   D-4
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Jack H. Trudel, Audit Manager, (510) 970-1733

Acknowledgments

In addition to those named above:

   Timothy E. Meinholz, Senior Auditor

   Wilfred P.K. Wong, Auditor

   Brennan Kraje, Statistician

   Annette DeRito, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-09-04-14050.




Payments to Student Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.

                                        Office of Audit

OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations

OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General

OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.

                               Office of Executive Operations

OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
